November 2, 2007

TERRY J. WILSON
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – The Postal Service’s Violence Prevention and Response
         Programs in Three Southeast Area Performance Clusters
         (Report Number HM-AR-08-002)

This report presents the results of the U.S. Postal Service Office of Inspector General’s
(OIG) self-initiated audit of the Postal Service’s violence prevention and response
programs in three Southeast Area Performance Clusters (PC) (Project Number
06YG044HM003). The Southeast Area was one of five areas judgmentally selected
from the nine Postal Service areas of operation.1 Our overall objective was to
determine if the violence prevention and response programs in the Central Florida,
South Florida, and Suncoast PCs effectively reduced the potential for violence.
Specifically, we determined whether (1) the PCs implemented required controls (policies
and procedures) to reduce the potential for violence and (2) oversight of the workplace
violence prevention program at the area and PC levels was adequate.

This report is the second in a series of six reports we will issue on the violence
prevention and response programs in 15 PCs. The sixth report will summarize the
conditions reported in the 15 PCs, management’s actions to correct the conditions, and
issues identified with nationwide impact.

We concluded the Central Florida, South Florida, and Suncoast PCs established threat
assessment teams (TAT) and took some positive steps to reduce the potential for
violence such as conducting climate assessments and Voice of the Employee (VOE)2
focus groups. However, the PCs’ violence prevention and response programs may not
be fully effective in reducing the potential for violence because the district and plant
managers (PC managers), and the TATs did not implement many of the required
policies and procedures to reduce the potential for violence. In addition, Southeast
Area and PC managers did not provide adequate oversight of the violence prevention
and response programs to ensure compliance with policies and procedures.

This report includes 13 recommendations to help the Southeast Area, its PCs, and its
TATs improve the effectiveness of the violence prevention and response program.
Implementation of these recommendations will also improve the safety and security of
1
  The five areas reviewed were Capital Metro, Northeast, Pacific, Southeast, and Southwest.
2
  The VOE Survey is a data collection instrument used to obtain information from career employees regarding how
they feel about their workplace environment. The Postal Service uses this information in a number of ways, to
include ensuring employees feel safe in their workplaces.
The Postal Service’s Violence Prevention and                              HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

employees and prevent harm to the Postal Service’s reputation (goodwill). We will
report these non-monetary impacts in our Semiannual Report to Congress.

Management agreed to implement all 13 recommendations and the actions taken or
planned should correct the issues identified. Management’s comments and our
evaluation of these comments are included in the report.

                                          Background
The Postal Service has long recognized the importance of ensuring the safety of its
employees by creating and maintaining a work environment that is violence-free. In
addition, the agency is obligated under the Occupational Safety and Health
Administration (OSHA) “General Duty” clause to provide a safe and healthful working
environment for all workers covered by the Occupational Safety and Health Act (the
OSH Act) of 1970. To prevent violence in the workplace and minimize the potential risk
the Postal Service established the following criteria:

   •   The Administrative Support Manual (ASM) requires security control officers or
       their designees to conduct annual facility security reviews.

   •   The Joint Statement on Violence and Behavior in the Workplace (Joint
       Statement) signed by union and management association presidents and the
       Deputy Postmaster General in 1992 states the Postal Service will not tolerate
       violent and inappropriate behavior by anyone, at any level. (See Appendix B for
       a copy of the Joint Statement.)

   •   The Threat Assessment Team Guide (Publication 108) requires TATs to assess
       and respond to violent and potentially violent situations. The guide outlines six
       strategies designed to assist the TATs: (1) selection, (2) security,
       (3) communication of policy, (4) environment and culture, (5) employee support,
       and (6) separation.

The strategies are an integral part of the Postal Service’s Strategic Transformation Plan
2006 – 2010 which identifies engaging and motivating the workforce as one of its goals.
A key transformation strategy for achieving this goal is maintaining a safe work
environment for all employees. This audit reviewed the implementation of three of the
six strategies — security, communication of policy, and environment and culture.

                        Objectives, Scope, and Methodology
We discuss our objectives, scope, and methodology in detail in Appendix C.

                                    Prior Audit Coverage

We discuss prior audit coverage in Appendix D.


                                               2
The Postal Service’s Violence Prevention and                               HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

                                               Results
The following summarizes our findings and recommendations regarding the Central
Florida, South Florida, and Suncoast PCs’ violence prevention and response programs.
Additional details regarding our findings are in Appendix E.

Security Strategy – Ensure appropriate safeguards for employees, customers,
and property.

Two of the three PCs did not consistently ensure that facilities had appropriate security
safeguards in place and that employees complied with them. The Central Florida,
South Florida, and Suncoast PC security coordinators stated they took corrective
actions on the security and safety deficiencies identified at the three PCs in fiscal year
(FY) 2006. However, the xxxxxxx xxxxxxx and xxxxxxxx coordinators did not maintain
the documents that showed the actions taken and how the actions corrected the
deficiencies. The xxxxx xxxxxxx security coordinator did maintain documentation.

Appropriate security safeguards assist in preventing violence in the workplace. One
such safeguard is preventing unauthorized individuals from gaining access to postal
facilities by securing doors. The FY 2006 VOE Survey results for the Central Florida,
South Florida, and Suncoast PCs indicate that numerous employees were concerned
that unauthorized individuals could gain access to facilities in their PCs. (See
Appendices F, G, and H for additional details regarding VOE Survey responses.)

In FY 2007, the Southeast Area security coordinator took corrective action to ensure
that documentation was maintained. We are not making recommendations in this area
since management’s corrective actions addressed the security issues.

Communication of Policy Strategy – Consistently communicate and enforce
Postal Service policy regarding violent and inappropriate behavior.

Zero Tolerance Policy Postings Could be Improved

The three PCs disseminated copies of their current local zero tolerance policy to all PC
employees in FY 2006 through stand-up talks and new employee orientation classes.
However, management could improve their procedures for posting their zero tolerance
policy, which sometimes was not posted at all or was not signed by the current lead
plant manager at some of the facilities we visited.

Properly posting the zero tolerance policy may reduce the potential for violence in the
workplace. For example, posting the current policy makes important information
available on the workroom floor, where employees may need it most. In addition, when
both PC managers sign the zero tolerance policy, it reaffirms to all employees the
managers’ commitment to a violence-free workplace.




                                                  3
The Postal Service’s Violence Prevention and                                                 HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

Recommendations

We recommend the Vice President, Southeast Area Operations:

    1.    Direct the Central Florida, South Florida, and Suncoast Performance Cluster
          managers to implement an internal control to ensure their current zero tolerance
          policy is properly posted in all facilities, at least annually. For example, facility
          managers could provide written annual certifications to the performance cluster
          threat assessment teams.

    2.    Direct the xxxxxxx xxxxxxx xxx xxxxxxxx Performance Cluster managers to
          update their zero tolerance policy to include the lead plant managers’
          signatures.

Workplace Violence Awareness Training Needed for Some Employees

The xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx PC and Human Resources (HR) managers
ensured most employees and TAT core members3 received the required training.
However, the HR managers did not ensure all managers, supervisors, and 204b
supervisors4 received the required 8-hour (one-time) workplace violence awareness
training.

Postal Service employees who do not receive this training may not be effective in
recognizing, preventing, and responding to violent and potentially violent situations. In
addition, TAT members that are not adequately trained may not be effective in
establishing or administering a violence prevention and response program to reduce the
risk of violence in the workplace.

Corrective Action

The Postal Service Headquarters Employee Assistance Program (EAP)/Workplace
Environment Improvement (WEI) Office established a web-based TAT Membership and
Meeting Tool to ensure TAT core members receive the required training in accordance
with the TAT Guide. Effective March 2007, each PC is required to timely update the
information for their TAT core members.

Recommendations

We recommend the Vice President, Southeast Area Operations:

    3.    Notify the Central Florida, South Florida, and Suncoast Performance Cluster
          managers that workplace violence awareness training is a fiscal year


3
  TAT core members include the HR manager or designee, labor relations manager, medical director, or occupational
health nurse administrator (OHNA), district manager or designee, and lead plant manager or designee.
4
  A 204b supervisor is a bargaining employee detailed to an acting supervisor position.

                                                        4
The Postal Service’s Violence Prevention and                                                         HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

             mandatory requirement, and it is their responsibility to ensure training occurs,
             preferably during non-peak operational periods.

    4.       Direct the Central Florida, South Florida, and Suncoast Performance Cluster
             managers to determine which managers, supervisors, and 204b supervisors
             have not received the 8-hour (one-time) workplace violence awareness training,
             and provide the training as soon as possible.

    5.       Instruct the Central Florida, South Florida, and Suncoast District managers to:

         •     Remind Human Resources managers of their responsibility to conduct
               periodic reviews (at least quarterly)5 to determine if management has met the
               mandatory workplace violence awareness training requirements for all
               employees (including 204b supervisors) and threat assessment team
               members.

         •     Implement a control to ensure Human Resources managers conduct periodic
               reviews to determine which managers and supervisors did not receive the
               workplace violence awareness training.

Strategies to Enforce Postal Service Policy Not Fully Implemented

The xxxxxxx xxxxxxx xxx xxxxx xxxxxxx TATs did not fully implement violence
prevention strategies to ensure incidents of violent and inappropriate behavior were fully
addressed in accordance with the TAT Guide; xxxxxxx, xxx xxxxxxxx xxx xxx. We
identified 266 incidents reported to the three TATs in FY 2006 and determined that 17 of
them were not properly addressed in accordance with the TAT Guide.

Opportunities to prevent a violent incident from occurring diminish when management
does not fully implement violence prevention strategies to properly address potentially
violent incidents. In addition, management needs to appropriately and immediately
respond to potentially violent incidents. For example, VOE Survey quarterly reports for
the three PCs indicate many employees were concerned they were working in an
unsafe environment and could be victims of physical violence.

Recommendations

We recommend the Vice President, Southeast Area Operations:

    6.       Remind the xxxxxxx xxxxxxx xxx xxxxx xxxxxxx Performance Cluster managers of
             their responsibility to ensure threat assessment teams comply with the Threat
             Assessment Team Guide when responding to and resolving incidents of violent
             and inappropriate behavior.

5
  Quarterly reviews would provide sufficient time to schedule employees for training within the fiscal year it is
required.
6
  We reviewed 10 Central Florida, 10 South Florida, and six Suncoast PC incidents.

                                                            5
The Postal Service’s Violence Prevention and                               HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters


   7.    Direct the Central Florida, South Florida, and Suncoast Performance Cluster
         managers to implement a control to ensure threat assessment teams comply
         with the Threat Assessment Team Guide when responding to and assessing
         reports of potentially violent situations and inappropriate behavior.

   8.    Direct the xxxxxxx xxxxxxx xxx xxxx xxxxxxx threat assessment teams to review
         the incidents that had insufficient supporting documentation and determine if
         they were resolved in accordance with the Threat Assessment Team Guide.

Environment and Culture Strategy – Create a work setting and maintain an
atmosphere perceived to be fair and free from unlawful and inappropriate
behavior.

Monitoring and Evaluating Workplace Climate Indicators

The three PC HR managers took positive steps toward creating an atmosphere
perceived to be fair and free from unlawful and inappropriate behavior. For example,
they disseminated zero tolerance policies to all employees and provided some formal
employee training. The HR managers also monitored and evaluated VOE Survey
scores, numbers of grievances and Equal Employment Opportunity (EEO) complaints,
EAP referrals data, the number of assaults and credible threats, workers’ compensation
claims filed, and fitness-for-duty request logs to identify events that could escalate the
potential for violence. However, the xxxxxxxxxxxxxxxxxxxxxxxxxx HR managers did not
document how (or how often) they monitored and evaluated climate indicators, other
than their quarterly monitoring and evaluation of the VOE Survey results. The xxxxxxx
xxxxxxx xxxxxxxxxx xxx xxxxxxxx xxxxxxxxxx xxxxxxx.

Effective monitoring can create a work setting and atmosphere that is perceived to be
fair and free from unlawful and inappropriate behavior. For example, documenting the
evaluation of climate indicators from previous quarters allows management to identify
trends and hotspots to reduce the potential for violence. While the VOE Survey is an
important indicator of the workplace climate, it only reports results at the facility level
when 10 or more employees respond. In that regard, the VOE Survey should not be the
only climate indicator documented because it does not represent all facilities.

In addition, we reviewed 41 complaints the OIG Hotline received during FY 2006 and
found that some employees in these PCs reported workplace environment issues.
Some of these employees sent their workplace environment complaints to the OIG
because they believed they had exhausted all avenues for resolution in their workplace.
We believe employees could view work sites where management proactively moderates
the risk of violent situations as the agency’s commitment to the zero tolerance policy.




                                               6
The Postal Service’s Violence Prevention and                                                       HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

Recommendation

We recommend the Vice President, Southeast Area Operations:

      9.     Direct the xxxxxxxxxxxxxxxxxxxxxxxxxx Performance Cluster managers to
             ensure the threat assessment teams document their evaluations of climate
             indicators to identify trends and potential hotspots.

Team Process and Performance Measures Could be Improved

TAT Members, Meetings, and Minutes

The three TATs had the requisite number and type of team members. However, the
TATs did not consistently conduct quarterly7 meetings, properly prepare meeting
minutes, and disseminate minutes to the required TAT members, per the TAT Guide. A
TAT not conducting and properly documenting meetings runs the risk of not achieving
the TAT’s primary mission – preventing workplace violence.

Corrective Action

The web-based TAT Membership and Meeting Tool will ensure management conducts
and documents TAT meetings, and disseminates meeting minutes in accordance with
the TAT Guide. Effective March 2007, each PC is required to timely update the
information for their TAT.

Recommendation

We recommend the Vice President, Southeast Area Operations, direct the Central
Florida, South Florida, and Suncoast Performance Cluster managers to:

      10. Remind the Human Resources managers of their responsibility to conduct
          meetings and properly document and disseminate the minutes to the
          appropriate threat assessment team members.

TAT Performance Measures

The Central Florida, South Florida, and Suncoast HR managers stated they
implemented performance measures such as verbal feedback from employees and
informal TAT discussions to gauge whether the TATs were successful or needed to
change their processes. However, management did not document the measures and
the measures may not be adequate.

TATs cannot provide assurance that their efforts to prevent violent incidents in the
workplace were successful or needed improvement. In addition, using the primary


7
    The Postal Service modified the TAT Guide in March 2007 to require meetings twice a quarter.

                                                           7
The Postal Service’s Violence Prevention and                                                HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

measures suggested in the TAT Guide may provide more useful information to identify
areas for TAT improvement.

Recommendation

We recommend the Vice President, Southeast Area Operations, direct the Central
Florida, South Florida, and Suncoast Performance Cluster managers to:

    11. Implement controls to ensure threat assessment teams document the
        processes used to measure the team’s performance, as required by the Threat
        Assessment Team Guide, and ensure the measurements used are adequate
        for determining success and identifying areas for improvement.

Oversight of the Workplace Violence Prevention Program

Our review of TAT activities indicates the Central Florida, South Florida, and Suncoast
PC and Southeast Area HR managers did not provide adequate oversight of the
violence prevention and response programs. The PC managers did not ensure the
three TATs implemented many of the required policies and procedures to reduce the
potential for violence related to security, communication of policy, and the environment
and culture. The PC and HR managers also did not ensure that TATs followed
appropriate processes and documented performance measures.

In addition, the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx did not ensure the three PCs fully
implemented the workplace violence prevention program even though the OIG
recommended improvements to the programs in these three PCs in August 1999 and
September 2000.8

Adequate oversight at the area and PC levels could reduce the potential for violence.
Specifically, when TATs do not follow important workplace violence prevention and
response program policies and procedures, the teams may not be fully effective in
reducing the potential for violence.

The internal controls recommended in this report for the Central Florida, South Florida,
and Suncoast PC managers, if implemented, should provide sufficient oversight of the
TATs at the PC level. As a result, we have no additional recommendations for PC
managers regarding communication of policy and environment and culture strategies.




8
 Review of the Violence Prevention Program in the Suncoast District and the Impact on Workplace Climate and
Operations (Report Number ER-AR-99-002, dated August 24, 1999); Review of the Violence Prevention and
Response Programs in the Central Florida District (Report Number LB-AR-00-008, dated September 29, 2000); and
Review of the Violence Prevention and Response Programs in the South Florida District (Report Number LB-AR-00-
006, dated September 29, 2000).

                                                       8
The Postal Service’s Violence Prevention and                                               HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

Recommendations

We recommend the Vice President, Southeast Area Operations:

    12. Implement an internal control to ensure Southeast Area Performance Cluster
        managers provide adequate oversight of their threat assessment teams to
        improve the effectiveness of the violence prevention and response programs.
        For example, performance cluster managers could provide the Area Vice
        President with an annual certification that the teams are conducting business in
        accordance with the Threat Assessment Team Guide and related Postal
        Service policies.

    13. Determine if the findings in this report exist in the remaining Southeast Area
        Performance Clusters – Alabama, Atlanta, Mississippi, North Florida, South
        Georgia, and Tennessee – and, where necessary, take action to ensure
        management implements adequate controls.

Management’s Comments

Management did not specifically agree or disagree with the findings. Management
agreed, however, to implement all 13 recommendations in the report and provided
completion dates for their corrective actions taken or planned.9 For example,
management provided a copy of a March 5, 2007, memorandum from the Southeast
Area HR Manager which transmitted a self-audit checklist to all district HR managers
(with a copy to the district managers) asking them to certify the level of compliance with
21 controls (policies and procedures) to reduce the potential for violence by March 30,
2007. Management also stated they have no basis for disagreement with the non-
monetary impact. Management’s comments, in their entirety, are included in
Appendix I.

Evaluation of Management’s Comments

Management’s comments are responsive, and the actions taken or planned should
correct the issues identified in the findings. In addition, the OIG considers
management’s March 5, 2007, memorandum sufficient documentation to close
significant recommendations 3, 4, and 13.

The OIG considers recommendations 1, 2, 5, 7, 8, 9, 11, and 12 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.


9
 Management’s formal comments indicate their disagreement with recommendation 2 and did not include the dates
of corrective actions taken or planned. However, a subsequent discussion with management resulted in their
agreement with recommendation 2 and the dates of corrective actions taken or planned.

                                                      9
The Postal Service’s Violence Prevention and                             HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Chris Nicoloff,
Director, Human Capital, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc:    Mary Anne Gibbons
       Anthony J. Vegliante
       Doug A. Tulino
       Timothy C. Healy
       Jordan M. Small
       Kate F. Wiley
       Leonard L. Brown
       Sandra J. Savoie
       Katherine S. Banks




                                               10
The Postal Service’s Violence Prevention and                     HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

                                    APPENDIX A. ACRONYMS

ASAP           Area Security Assessment Program
ASM            Administrative Support Manual
EAP            Employee Assistance Program
EEO            Equal Employment Opportunity
FOIA           Freedom of Information Act
FY             Fiscal Year
HR             Human Resources
NTD            National Training Database
OHNA           Occupational Health Nurse Administrator
OIG            U.S. Postal Service Office of Inspector General
OSHA           Occupational Safety and Health Administration
OSH Act        Occupational Safety and Health Act
PC             Performance Cluster
TAT            Threat Assessment Team
VOE            Voice of the Employee
WebEIS         Web-Enabled Enterprise Information System
WEI            Workplace Environment Improvement
WIA            Workplace Improvement Analyst




                                               11
The Postal Service’s Violence Prevention and        HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

 APPENDIX B. JOINT STATEMENT ON VIOLENCE AND BEHAVIOR IN
                      THE WORKPLACE




                                               12
The Postal Service’s Violence Prevention and                                                   HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

         APPENDIX C. OBJECTIVES, SCOPE, AND METHODOLOGY
The overall objective of this audit was to determine if the Postal Service’s violence
prevention and response programs in selected locations were effective in reducing the
potential for violence. Specifically, we determined whether (1) the Central Florida,
South Florida, and Suncoast PCs implemented required controls (policies and
procedures) to reduce the potential for violence and (2) the level of oversight of the
workplace violence prevention program at the area and PC levels was adequate.10

To evaluate the workplace violence prevention and response program in the Southeast
Area, we judgmentally selected the Central Florida, South Florida, and Suncoast PCs
from the nine PCs in the Southeast Area. We selected these PCs based on an analysis
of seven workplace environment climate indicators for FYs 2004 through 2006.11 We
took steps to ensure the sample was representative of PCs where the indicators show
the climate was good and where the climate was troubled. We also considered whether
the PC appeared on the Postal Service’s troubled worksite list12 and whether the OIG
conducted prior workplace environment audits in the PC. Finally, we reviewed the
FY 2006 Area Security Assessment Program (ASAP) reviews to determine the
deficiencies identified and if the PCs took actions to correct them.13

We interviewed the PCs’ HR, Labor Relations, and Training managers; the Workplace
Improvement Analyst (WIA); and the area’s HR manager and analyst to determine
whether (1) the selected PCs had implemented required controls to reduce the potential
for violence and (2) Postal Service internal controls existed to provide adequate
oversight of the program at the area and PC levels. We also reviewed the TAT meeting
minutes and reports used to monitor and enforce policies and procedures to reduce
violence in the workplace. In addition, we reviewed the TAT Guide, ASM, Joint
Statement, and the OSHA “General Duty” clause to provide a safe and healthful working
environment for all workers covered by the OSH Act of 1970.

We reviewed the following data and information pertaining to the PCs’ activities related
to the violence prevention and response program:

     •   Zero tolerance policies and action plans.
     •   VOE Vital Few List.14
     •   Attendance records for required workplace violence awareness training.
     •   TAT incident reports and responses.

10
   We will address oversight at the headquarters level in a separate report.
11
   The seven climate indicators are the VOE Survey scores, grievances, EEO complaints, EAP referrals, climate
assessments, OIG Hotline complaints, and OIG congressional inquiries regarding workplace environments.
12
   Troubled worksites are facilities where evidence exists of an ongoing history of behavioral factors that remain
unresolved at the PC and area levels.
13
   The ASAP was a broad facility review of about 16 yes/no questions regarding core national and area security
items. The OIG report titled Postal Inspection Service Security Controls and Processes - Area Security Assessment
Program (Report Number SA-AR-07-004, dated July 10, 2007) identified that ASAPs were duplicative of security
reviews performed by the Postal Inspection Service and the reviews have been discontinued.
14
   The VOE Vital Few List identifies PC facilities with the largest opportunity for VOE Survey score improvement.

                                                        13
The Postal Service’s Violence Prevention and                                                    HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

     •   Newsletter articles and stand-up talks related to the zero tolerance policies and
         action plans.
     •   Numbers of grievances and EEO complaints.
     •   Numbers of assaults and credible threats.
     •   HR managers’ and staff roles and responsibilities in the workplace violence
         prevention and response programs.

Although we relied on data obtained from the EEO Complaints Tracking System,
Grievance Arbitration Tracking System, Inspection Service Integrated Information
System, National Training Database (NTD), payroll database, and the Web-Enabled
Enterprise Information System (WebEIS), we did not test the validity of the data and
controls over the systems. We believe the computer-generated data was sufficiently
reliable to support the opinions and conclusions in this report.

We conducted this performance audit from January through November 2007 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances.15 Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on August 15, 2007, and
included their comments where appropriate.




15
   For example, we reviewed internal controls related to the posting and dissemination of PC zero tolerance
statements, FY 2006 workplace violence awareness training records, TAT incident case files, climate indicators used
to monitor and evaluate PC workplace environments, TAT meeting frequency and minutes, and performance
measures used to evaluate TAT performance.

                                                        14
The Postal Service’s Violence Prevention and                             HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

                     APPENDIX D. PRIOR AUDIT COVERAGE
Three OIG reports stated required controls were not fully implemented to reduce the
potential for violence in the Central Florida, South Florida, and Suncoast Districts.
These reports are the Review of the Violence Prevention Program in the Suncoast
District and the Impact on Workplace Climate and Operations (Report Number ER-AR-
99-002, dated August 24, 1999); Review of the Violence Prevention and Response
Programs in the Central Florida District (Report Number LB-AR-00-008, dated
September 29, 2000); and Review of the Violence Prevention and Response Programs
in the South Florida District (Report Number LB-AR-00-006, dated September 29,
2000.) The reports also stated the Central Florida and South Florida Districts generally
complied with the TAT Guide when reacting to incidents of violence but they did not fully
implement proactive strategies to reduce the potential for violence in the workplace.
The Suncoast District report stated district officials did not implement an effective
violence prevention and response program. Specifically, the district did not conduct
annual physical security reviews; monitor and evaluate climate indicators; mandate
required violence awareness training for managers, supervisors, and craft employees;
and measure the TATs’ performance. We recommended the Vice President, Southeast
Area, direct the Central Florida, South Florida, and Suncoast District managers to
ensure they implement controls to improve the effectiveness of the districts’ violence
prevention programs. Management did not concur with the recommendations.
However, we believed the districts’ planned or implemented actions were responsive.

The OIG report titled Postal Inspection Service Security Controls and Processes – Area
Security Assessment Program (Report Number SA-AR-07-004, dated July 10, 2007)
indicated that management did not effectively and efficiently use the ASAP to assess
Postal Service security and compliance with security policies and procedures.
Specifically, management developed and implemented the national standardized ASAP
without guidance or approval from the Postal Inspection Service, which has primary
responsibility for security at the Postal Service. As a result, Postal Service
management used its own personnel to conduct ASAP reviews, the results of which the
Postal Inspection Service did not take into account when assessing security operations.
Additionally, Postal Service management expended approximately $144,000 on the
ASAP database, however, the information in the database was not reliable. We
recommended, and management agreed, to discontinue the use of the ASAP given that
the Postal Inspection Service does not use the results to assess security operations in
the Postal Service, and it is similar to security reviews the Postal Inspection Service
currently performs.




                                               15
The Postal Service’s Violence Prevention and                                                                                        HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

                  APPENDIX E. CENTRAL FLORIDA, SOUTH FLORIDA, AND SUNCOAST
           PERFORMANCE CLUSTERS’ CONDITIONS AND CAUSES RELATED TO AUDIT OBJECTIVES

Objective 1 – Determine if the PCs implemented required controls (policies and procedures) to reduce the potential for
              violence.
1. Security Strategy – Ensure appropriate safeguards for employees, customers, and property.
Condition       PCs may not have ensured appropriate security safeguards were in place and complied with at many facilities.    X   9              X
                •  PC and area security coordinators did not maintain documentation that showed how the security
                   deficiencies identified in 228 FY 2006 ASAP reviews were corrected. For example, the reviews identified
                   that in the Central Florida and Suncoast PCs some exterior doors/access points to facilities were not        X   9              X
                   secured (seven deficiencies), and unauthorized access to some facilities were not challenged (15
                   deficiencies).

Cause           Management did not require installation heads to certify they had corrected deficiencies.                       X                  X
2. Communication of Policy Strategy – Consistently communicate and enforce Postal Service policy
   regarding violent and inappropriate behavior.
Condition       PCs disseminated FY 2006 current local zero tolerance policies to all PC employees through stand-up talks and
                                                                                                                                9   9              9
                new employee orientation classes.
                Some communication improvements are needed.                                                                     X   X              X
                •   The zero tolerance policy was not posted in four of the 12 facilities visited.                              9   X              X
                •   The zero tolerance policy was not signed by the lead plant managers.                                        X   9              X

Cause           •   WIA did not know why the policy was not posted in the district building, and did not know where it was
                                                                                                                                                   X
                    supposed to be posted.16
               •    WIA did not know why the policy was not posted in the district office and co-located processing and
                                                                                                                                    X
                    distribution center.
               •    WIA believed it was an oversight the lead plant manager’s signature was not on the zero tolerance policy.   X
               •    HR manager believed the district manager’s signature was sufficient.                                                           X
Note:     X indicates the PC was not in compliance, and the cause for non-compliance.
          9 indicates the PC was in compliance.
            no symbol indicates not applicable.




16
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                                                                       16
The Postal Service’s Violence Prevention and                                                                                                      HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters


2. Communication of Policy Strategy – Consistently communicate and enforce Postal Service policy
   regarding violent and inappropriate behavior.
Condition     Workplace violence awareness training needed for some employees.                                                   X               X                X
              •    HR managers ensured most employees (32,355) and TAT core members received the required training.              9               9                9
              •    PC and HR managers did not ensure all managers, supervisors, and 204b supervisors received the
                                                                                                                                 X                X               X
                   required 8-hour (one time) workplace violence awareness training.

Cause         HR manager believed all managers, supervisors, and 204b supervisors completed the required 8-hour course as
                                                                                                                                 X
              part of the Associate Supervisor Program.
              *NTD exception reports for 8-hour course identified all employees as non-bargaining (including secretaries,
              technicians, and other non-managers). This made it difficult to discern which managers, supervisors, and 204b                       X
              supervisors had not received training.
              *The NTD does not identify 204b supervisors separate from their bargaining employee identification.                                 X               X
              Management turnover.17                                                                                                                              X
              xxx xxxx did not receive training because in FY 2006 xxx was a contract employee and the PC does not provide
                                                                                                                                                                  X
              contractors with TAT training.

Condition     TATs did not fully implement violence prevention strategies to ensure incidents of violent and inappropriate
                                                                                                                                 X                X               9
              behavior were fully addressed in accordance with the TAT Guide.
              •   17 of the 26 incidents reported to the TATs in FY 2006 were not properly addressed, while nine were.           X                X               9
                 ¾ 17 did not receive proper case management (including documenting the assessment of the risk level),18
                                                                                                                                 X                X               9
                      and were not monitored and tracked to ensure resolution.
                 ¾ Two had insufficient (or no) documentation which prevented us from determining how they were
                                                                                                                                 X                X               9
                      addressed and resolved (15 did).
                  ¾ Three had no documented risk abatement plans (14 did).                                                       X                X               9
                  ¾ Seven were not immediately and firmly responded to (10 were).                                                X                X               9
              •  Incident tracking logs not properly maintained to show when 19 of the 26 incidents were reported and
                                                                                                                                 X                X               X
                 resolved.

Cause         HR managers did not fully understand the importance of TAT responsibilities.                                       X                X               X
              •  WIAs believed that despite findings on 17 incidents, TATs handled incidents appropriately.19                    X                X
              •  WIAs believed the incident tracking logs were properly maintained.                                              X                X               X
*These are headquarters issues we will address in a capping report.




17
   The Suncoast xx and xxxxx xxxxxxxxx xxxxxxxxx position vacancies impacted the TAT’s ability to ensure compliance with training requirements.
18
   The TAT Guide defines the priority risk levels as priority 1 – extreme risk; priority 2 – high risk; priority 3 – low or moderate risk; and priority 4 – no risk.
19
   xxx xxxxxxx xxxxxxx xxx xxxxxx xxxx xxxx xxxxxxx xxxxxxxxxxx xxxx xxx xxxxxxxx xxxx xxxxx xxxxx xx xxxxxxxxxx xxx xxxxxxx xxxxxxxxxxxx xxx xx xx xxxxx xxxxxxx xx
xxxxx xxxxxxxxxxx.

                                                                                   17
The Postal Service’s Violence Prevention and                                                                                        HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters


3. Environment and Culture Strategy – Create a work setting and maintain an atmosphere perceived to be
   fair and free from unlawful and inappropriate behavior.
Condition       HR managers took positive steps toward creating an atmosphere perceived to be fair and free from unlawful and
                                                                                                                                9   9              9
                inappropriate behavior.
                •   HR managers used VOE Survey results, grievances, EEO complaints, and EAP referrals as climate
                                                                                                                                9   9              9
                    indicators to identify and follow-up on events that could escalate the potential for violence.
                •   HR manager used the number of assaults and credible threats, fitness-for-duty request log, and workers’
                    compensation claims as climate indicators to identify and follow-up on events that could escalate the       9
                    potential for violence.
                Some improvements are needed.                                                                                   9   X              X
                •   HR managers did not maintain documentation on how they used climate indicators to monitor and evaluate
                                                                                                                                9   X              X
                    the workplace environment (including the frequency) except for VOE Survey results.

Cause           xx xxxxxxxx considered evaluations of the VOE Survey results sufficient documentation of workplace climate
                                                                                                                                    X              X
                indicators.

Condition       TATs did not consistently conduct quarterly meetings, properly prepare meeting minutes, and disseminate
                                                                                                                                X   X              X
                minutes to required TAT members.
                TATs had the requisite number and type of team members required by the TAT Guide.                               9   9              9

Cause           xx xxxxxxx relied on xxx xxx to ensure quarterly meetings were conducted, and minutes were properly prepared
                                                                                                                                    X
                and disseminated.
                xx xxxxxxx xxxxxxxx the TAT meeting twice a year was cost effective due to the number of team members.          X
                xxxxxxxxx xxxxxx xx xxx xxxxxxxx xxxxxxx to disseminate minutes to the lead plant manager.20                    X
                xx xxxxxxx xxx xxx xxxx xxx xxx xxxxxx xx xxxxxxx did not ensure the TAT conducted quarterly meetings, or
                                                                                                                                                   X
                properly prepared and disseminated meeting minutes to required TAT members.

Condition       Measures to gauge TATs’ success were not documented and may not have been adequate.                             X   X              X
                •  TAT informally discussed their teams’ performance.                                                               9
                •  TAT used informal discussions with team members and installation heads or managers where the incident
                                                                                                                                9                  9
                   was reported.
                •  TATs did not document informal measurements.                                                                 X   X              X

Cause           xx xxxxxxxx xxxxxxxx xxx informal measures accomplished the intended purpose.                                   X   X
                xx xxxxxxx did not know why TAT requirements were not followed.                                                                    X




20
     xx xx xxxxxxx xxxxxx xx xxxxxxxxxxxx xxxxxxx xx xxx xxxxxxxx xxxxxxx xxx xxx xxxxxxxxxx xxxxxxx.

                                                                                     18
The Postal Service’s Violence Prevention and                                                                                     HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters


Objective 2 – Determine the adequacy of oversight of the workplace violence prevention
              program at the area and PC levels.
Condition        xx xxx xxxxxx xxxx xx xxxxxxxx xxx xxx xxxxxxx xxxxxxxx xxxxxxxxx xx xxx xxxxxxxx xxxxxxxxxx xxx xxxxxxxx
                                                                                                                             X   X              X
                 xxxxxxxx.
                 •   PC managers did not ensure TATs implemented many required policies and procedures to reduce the
                                                                                                                             X   X              X
                     potential for violence related to security, communication of policy, and the environment and culture.
                 •   PC managers did not ensure that appropriate TAT processes were followed and performance measures
                                                                                                                             X   X              X
                     were documented.
                 •   xxxxxx xxxx HR manager did not ensure the three PCs fully implemented the program even though the OIG
                     recommended improvements to the Central Florida, South Florida, and Suncoast programs in August 1999    X   X              X
                     and September 2000.

Cause            xx xxxxxxxx relied on xx xxxxxxxx to ensure compliance with the TAT Guide requirements.                         X              X
                 xxxxxxxx xxxxxxx did not know why the former district manager did not provide oversight.21                  X




21
     xxx xxxxxxx xxxxxxx xxxxxxxx xxxxxxx xxxxxx xxx xxx xxxxxxxx xx xxx xxxxxxxx xx xxxxxxx xxxx.

                                                                                       19
The Postal Service’s Violence Prevention and                   HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters


     APPENDIX F. CENTRAL FLORIDA PERFORMANCE CLUSTER
   FISCAL YEAR 2006 VOICE OF THE EMPLOYEE SURVEY RESULTS
   FOR QUESTIONS RELATED TO THE WORKPLACE ENVIRONMENT




                                                    Redacted




* xxxxxxx x xxx xx xx xxxxxxxx.

xxxxxx: xxxxxx
xxxx: xxxxxxxxxxx xxx xxx xxx xx xx xxx xxx xx xxxxxxxx




                                                          20
The Postal Service’s Violence Prevention and                   HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

  APPENDIX G. SOUTH FLORIDA PERFORMANCE CLUSTER FISCAL
   YEAR 2006 VOICE OF THE EMPLOYEE SURVEY RESULTS FOR
    QUESTIONS RELATED TO THE WORKPLACE ENVIRONMENT




                                                    Redacted




* xxxxxxx x xxx xx xx xxxxxxxx.

xxxxxx: xxxxxx
xxxx: xxxxxxxxxxx xxx xxx xxx xx xx xxx xxx xx xxxxxxxx

                                                          21
The Postal Service’s Violence Prevention and                   HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters


 APPENDIX H. SUNCOAST PERFORMANCE CLUSTER FISCAL YEAR
2006 VOICE OF THE EMPLOYEE SURVEY RESULTS FOR QUESTIONS
         RELATED TO THE WORKPLACE ENVIRONMENT




                                                    Redacted




* xxxxxxx x xxx xx xx xxxxxxxx.

xxxxxx: xxxxxx
xxxx: xxxxxxxxxxx xxx xxx xxx xx xx xxx xxx xx xxxxxxxx


                                                          22
The Postal Service’s Violence Prevention and           HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters

                   APPENDIX I. MANAGEMENT’S COMMENTS




                                               23
The Postal Service’s Violence Prevention and        HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters




                                               24
The Postal Service’s Violence Prevention and        HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters




                                               25
The Postal Service’s Violence Prevention and        HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters




                                               26
The Postal Service’s Violence Prevention and        HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters




                                               27
The Postal Service’s Violence Prevention and        HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters




                                               28
The Postal Service’s Violence Prevention and        HM-AR-08-002
 Response Programs in Three Southeast Area
 Performance Clusters




                                               29
